W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-7879

Vincent Gino Chavez

Ken Clark, Warden

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

David Andrew Eldridge, DAG

Date:

5/3/21

Digitally signed by David Andrew Eldridge, DAG
Date: 2021.05.03 10:19:46 -07'00'

(Type or print) Name David Andrew Eldridge
Mr.

Ms.

Mrs.

Firm

Attorney General of California

Address

1300 I Street, P.O. Box 944255

City & State

Sacramento CA

Phone

9162107753

Miss

Zip 94244-2550
Email

David.Eldridge@doj.ca.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Ms. Vicki Marolt Buchanan, Attorney for Petitioner: vickimaroltbuchananpc@gmail.com

